Supreme Court, U.S.
FILED

NOV 0 7 2019
OFFICE OF THE CLERK

o. 19-166
/EL tbe ampreme Court of the Ilniteb 6tateo
Matthew J. Rosenwasser, Petitioner
v.
Fordham University,
Joseph McShane, President and
John Carroll, Head of Security, Respondents

ON PETITION FOR REHEARING AND
REMANDING
TO THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT

PETITION FOR A REHEARING

Matthew J. Rosenwasser Margaret T. Ball, Esq.
Pro Se
General Counsel
PO Box 895
Fordham University
New York, NY 10163
Rose Hill
-0895
441 East Fordham Rd
Cunniffe House
Room 111
Bronx, NY 10458

RECEIVED
DEC - 2 2019
OFFICE OF THE el FT<
SUPREME C0,3rn

Question Presented for Review
When a federally-funded university
consistently, deliberately and intentionally denies
a Title IX investigation, the Statute of Limitations
for Title IX is tolled while due process litigation is
ongoing in the Courts. In addition, an Article 78
action is tolled when it is not ripe for judicial
review.
List of Parties to Proceeding
Fordham University
John Carroll, Head of Security, Fordham
University
Joseph McShane, President, Fordham
University
Matthew J. Rosenwasser, Pro Se Appellant
Corporate Disclosure Statement
John Carroll, Head of Security, Fordham
University: employed by Fordham University
Joseph McShane, President, Fordham
University; employed by Fordham University
4. Matthew J. Rosenwasser, Pro Se Appellant; no
ownership stake in Fordham University; not
employed by Fordham University

Table of Contents
Question Presented
Parties to Proceeding
Corporate Disclosure
Table of Contents
Table of Authorities
Citations of Opinions
Basis of Jurisdiction
Statement of Case
Reasons for Rehearing
Conclusion
Appendix A

Page i
Page i
Page i
Page ii
Page iii
Page 1
Page 1
Page 2-5
Page 6-8
Page 6
Page 7

Table of Authorities

Cases
Smith v. American President Lines, Ltd., (571
Page 2
F.2d 102, 109 (2d Cir. 1978)
Federation of Mental Health Centers, Inc. v.
DeBuono 712 N.Y.S.2d 667
Page 5
(N.Y. App. Div. 2000)
Greenberg v. Assessor 996 N.Y.S.2d 48 (N Y. App.
Page 5
Div. 2014)
Di Pietro v. State Insurance Fund
619 N.Y.S.2d 456
(N.Y. App. Div. 1994))

Page 5

Public Serv. Comm'n v. Md. People's Counsel
Page 5
522 A.2d 369 (Md. 1987)

Statutes
20 U.S.C. ยง 1681 (Title IX)
NYS CPLR Article 78

Pages 2-3, 5
Pages 3-5

Citations of Opinions
Southern District of NY; Case 17-cv-5191
2nd Circuit Court of Appeals; Case 18-905
Statement of the Basis for the Jurisdiction
The Judgement of the Court of Appeals was
entered on May 7, 2019. A petition for rehearing
was denied on June 19, 2019. This Court's
jurisdiction rests on 20 U.S.C. ยง 1681 (Title IX)
and NYS CPLR Article 78.

1

REASONS FOR GRANTING THE
REHEARING

If possible, I was hoping that the Supreme Court
would remand case No 19-166 (Rosenwasser vs.
Fordham et al) back to the 2nd Circuit for
further review.
In Smith vs. American President Lines ((571
F.2d 102, 109 (2d Cir. 1978)), there are 3 tests
that are outlined for a case to toll the Statue of
Limitations. It should be noted that only 1 of the
3 tests need to be passed. The 3 tests are:
Defendant actively mislead plaintiff with
regards to the cause of action
Plaintiff has been prevented from asserting
his rights
Plaintiff has, in a timely manner, asserted his
rights mistakenly in the wrong forum
In Case 19-166, ALL THREE of the tests have
been passed as follows:
1. Defendant actively mislead plaintiff with
regards to the cause of action: Fordham
deliberately withheld the fact that the false
charges filed against me fell under the Federal
Law known as Title IX. As such, when they
categorically refused to do an investigation after
over 10 requests were made, the case filed in
New York State Supreme Court was not filed
under Title IX.
2

Plaintiff has been prevented from asserting
his rights: Given that Fordham refused to do an
investigation (even after over 10 requests by the
plaintiff), I was prevented from exercising my
rights under Title IX, such as questioning the
person that filed the false charges, reviewing
evidence such as video recordings or even seeing
the false charges in writing.
Plaintiff has, in a timely manner, asserted his
rights mistakenly in the wrong forum: The first
case filed against Fordham in fighting the false
charges was filed in NYS Supreme Court just one
year after the false charges were filed against me.
The Defendant then unethically and illegally
intentionally refused to produce the Head of
Security for a deposition for years in an attempt
to push the case past the Statue of Limitations.
In spite of this, I have vigorously pursued my
rights throughout the case in the NYS Supreme
Court. After that case ended, within weeks, the
federal case was filed in the Southern District of
NY.
Based on passing all 3 tolling tests, I request that
the Court has good reason to send this case back
to the 2nd Circuit for reconsideration.
Furthermore, Fordham has claimed in the past
that this case falls under a New York CPLR
Article 78 Proceeding and passed the Statute of
Limitations. However, this case has also been
tolled under Article 78.
-3-

It should be noted that since no investigation
was ever done by Fordham (even after multiple
requests by the plaintiff), this case must be
considered to have been tolled under an Article
78 proceeding since it does not pass the ripeness
test. It was not ripe for judicial review since no
investigation of the false charges was ever
performed, there was no final decision made by
Fordham as an institution, no notice of hearing,
no appeal instructions, no notice of investigation
and no fact finding. As the letter in Appendix A
banning the plaintiff from Fordham stated:
"there is no need to discuss, defend or consider
any allegation."
As such, the case was also tolled under Article
78, pending an investigation of the charges as
requested. The attached letter in the Appendix
from Head of Security John Carroll clearly
indicates that the case was not ripe, as there was
no investigation done and no final determination
made. In brief, there was no due process of any
kind.
The author of the letter also lied when he stated
that I had no right to be on campus. Due to the
fact that I had legally purchased a Library Pass
to access the campus Library while I was paying
off an expensive tuition bill, I had every legal
right to be on campus and to be entitled to due
process protections.

4

There are several previous cases where the
Courts ruled that institutions made
determinations under Article 78 that were not
ripe for any kind of judicial review.
In Federation of Mental Health Centers, Inc. v.
DeBuono 712 N.Y.S.2d 667 (N.Y. App. Div. 2000)
the "Supreme Court denied the motion for a
preliminary injunction and dismissed the
complaint, finding that the issues were not ripe
for judicial review."
Furthermore, in Greenberg v. Assessor 996
N.Y.S.2d 48 (N.Y. App. Div. 2014) the Court
stated: "...the Supreme Court properly
determined that his claims seeking CPLR article
78 relief...were not ripe for judicial review."
In addition, Di Pietro v. State Insurance Fund
619 N.Y.S.2d 456 (N.Y. App. Div. 1994), the
"Supreme Court dismissed the petition
concluding that the matter was not ripe for
judicial review."
In Public Serv. Comm'n v. Md. People's Counsel
522 A.2d 369 (Md. 1987) it was stated:
"Consequently, the Court held that the
Association's challenge to the validity of the
regulation was not ripe for review."
As such, I respectfully request that Case # 19166 be remanded back down to the 2nd Circuit
for review under Title IX and Article 78.
-5-

CONCLUSION
The Court should grant the petition for a rehearing and remand the case to the 2' Circuit.
Respectfully submitted,

Matthew Rosenwasser
Pro Se
PO Box 895
New York, NY 10163-0895

6

May 21, 2010

APPENDIX A

Mr. Matthew J. Rosenwasser
43-54 149" Street
Flushing, NY 11355
Dear Mr. Rosenwasser:
I wrote to you on April 28, 2010 thanking you for
your note regarding our guards. I'm sorry to
have to write again today based on a report
submitted to me by my Lincoln Center
Administrator. I understand that you are not
currently enrolled at Fordham and have no
legitimate reason to be on any any Fordham
campus therefore there is no need to discuss,
defend or consider any allegation.
Please be advised that effective immediately and
continuing indefinitely you are not permitted on
Fordham University property for any reason.
This includes, but is not limited to, all on and off
campus University residential facilities. Should
you choose to ignore this directive, our Security
Supervisors will have instructions to take you
into custody and take whatever steps are
necessary to file trespassing charges against you.
Please contact me with any questions.
Sincerely,
John Carroll
AVP Safety/Security
7-

CERTIFICATE OF COMPLIANCE

No. 19-166
MATTHEW J. ROSENWASSER, et al.,
Appellants,
v.
FORDHAM UNIVERSITY, et al.,
Appellees.
As required by Supreme Court Rule 44, I
certify that the Jurisdictional Statement
contains
843 words, excluding the parts of the
Statement that
are exempted by Supreme Court Rule 44.
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on November 26, 2019.

Matthew J. Rosenwasser
Pro Se
PO Box 895
New York, NY 10163-0895

